No. 12-

 

In The

Supreme Court of the Anited States

 

JENNIE NICASSIO,
Petitioner,
v.
VIACOM INTERNATIONAL, INC., AND
PENGUIN RANDOM HOUSE, LLC,
Respondents.

On petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

PETITION FOR CERTIORARI

 

CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1 (h), I certify that the document contains
8551 words, excluding the parts of the document that exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the forgoing is true and correct.

Executed on October 25, 2019

 

Anthony H. Handal
Counsel of Record
Handal & Morofsky, LLC
